         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                       Catalyst for Improving the Environment


Evaluation Report




       Regional Public Liaison Program
       Needs Greater Focus on Results
       and Customer Awareness
       Report No. 09-P-0176

       June 24, 2009
Report Contributors:             Bram Hass
                                 Larry Dare
                                 Eric Lewis




Abbreviations

EPA          U.S. Environmental Protection Agency
FTE          Full-Time Equivalent
OIG          Office of Inspector General
OSWER        Office of Solid Waste and Emergency Response
RPL          Regional Public Liaison (formerly Regional Superfund Ombudsman)
RSO          Regional Superfund Ombudsman
                                                                                                          09-P-0176
                       U.S. Environmental Protection Agency                                            June 24, 2009
                       Office of Inspector General


                       At a Glance
                                                                           Catalyst for Improving the Environment


Why We Did This Review            Regional Public Liaison Program Needs Greater
The Office of Inspector           Focus on Results and Customer Awareness
General (OIG) evaluated the
actions taken by the U.S.          What We Found
Environmental Protection
Agency’s (EPA’s) Office of
Solid Waste and Emergency         OSWER’s RPL program does not sufficiently focus on or measure specific
Response (OSWER) to               outputs and outcomes and is not consistently implemented across offices. RPLs
implement its Regional Public     report results in varied formats, and OSWER does not consolidate program results
Liaison (RPL) program.            into a comprehensive report. As a result, RPLs reported annual results that could
We also reviewed program          not be readily consolidated to show what RPLs had achieved. The program does
changes resulting from a 2003     not sufficiently focus on results because it lacks clear program logic. Developing
OIG report.                       a logic model would help define outputs and outcomes and encourage a results-
                                  oriented approach to program implementation. A more consistent and
Background                        comprehensive approach would also raise stakeholder awareness of the RPL
                                  program.
Responding to the 2003 OIG
report, EPA in 2004 revised its   Despite limited resources, RPLs have assisted many stakeholders since the
Superfund Regional                program was revised in 2004. New guidance more clearly described program
Ombudsman program,                expectations and sought to provide more consistent program implementation
renamed staff RPLs, and           across regional offices.
established national program
guidance. The RPLs help the
public and regulated               What We Recommend
community by (1) providing
information and facilitating      We recommend that OSWER use a logic model approach to revise the RPL
informal contact with EPA         program to help focus on outputs and outcomes and ensure stakeholders are aware
staff, (2) helping resolve        of the RPL resource. Also, OSWER should revise the 2004 RPL guidance to
problems, and (3) making          reflect program revisions and build in minimum requirements for stakeholder
recommendations for               awareness activities, including a national RPL Website.
improvement to Agency
senior management.
                                  OSWER concurred and described planned corrective actions to address all of our
                                  recommendations. OSWER stated it has requested assistance from OSWER’s
For further information,          Center for Program Analysis to conduct a logic model assessment starting during
contact our Office of             the RPLs’ National Meeting, June 16-18, 2009. OSWER’s response explains that
Congressional, Public Affairs     this assessment will lead to revised guidance that will include minimum
and Management at
                                  requirements for stakeholder awareness activities.
(202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2009/
20090624-09-P-0176.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                           OFFICE OF
                                                                                      INSPECTOR GENERAL



                                            June 24, 2009

MEMORANDUM

SUBJECT:                Regional Public Liaison Program Needs Greater Focus
                        on Results and Customer Awareness
                        Report No. 09-P-0176


FROM:                   Wade T. Najjum
                        Assistant Inspector General
                        Office of Program Evaluation

TO:                     Mathy Stanislaus
                        Assistant Administrator
                        Office of Solid Waste and Emergency Response


This is our final report on the subject review conducted by the Office of Inspector General (OIG) of
the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
concerns the OIG has identified and corrective actions the OIG recommends. This report represents
the opinion of the OIG and does not necessarily represent the final EPA position. Final
determinations on matters in this report will be made by EPA managers in accordance with
established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the applicable
daily full cost billing rates in effect at the time – is $355,483.

Action Required

We believe the written response you provided to the draft report meets the requirements of EPA
Manual 2750 for a written response within 90 days of the date of this report. We request that you
inform us as you complete each corrective action so we may update our tracking system. We have
no objections to the further release of this report to the public. This report will be available at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Eric Lewis at
202-566-2664 or lewis.eric@epa.gov, or Larry Dare at 202-566-2138 or dare.larry@epa.gov.
Regional Public Liaison Program Needs                                                                                      09-P-0176
Greater Focus on Results and Customer Awareness



                                  Table of Contents

Chapters
   1    Introduction ..........................................................................................................      1

                Purpose .........................................................................................................    1
                Background ...................................................................................................       1
                Noteworthy Achievements .............................................................................                2
                Scope and Methodology ................................................................................               3

   2    Focusing on Results Would Provide Greater Program
        Consistency and Facilitate Measuring Results ..................................................                              4

                RPL Program Needs Greater Focus on Outputs and Outcomes ..................                                           4
                OSWER Should Analyze Program Logic to Focus on Results.......................                                        6
                Regional Resources Devoted to RPL Program Varied Greatly ....................                                        6
                Performance Agreements Should Include RPL Role ...................................                                   7
                Consistent Implementation Would Improve Stakeholder Awareness.............                                           7
                Conclusions ...................................................................................................      9
                Recommendations ........................................................................................             9
                Agency Response and OIG Comment ...........................................................                         10

   Status of Recommendations and Potential Monetary Benefits ................................                                       11



Appendices
   A    Agency Response to Draft Report.......................................................................                      12

   B    Distribution ...........................................................................................................    15
                                                                                      09-P-0176




                               Chapter 1
                                Introduction

Purpose

          The Office of Inspector General (OIG) reviewed the U.S. Environmental
          Protection Agency’s (EPA’s) Regional Public Liaison (RPL) program within the
          Office of Solid Waste and Emergency Response (OSWER) to answer the
          following questions:

             •   Is the RPL program being implemented consistently across offices?

             •   How does EPA measure the results (outputs and outcomes) of this
                 program, including its impact on the involved communities and the
                 environmental problems they face?

          We also looked at whether the program implemented recommendations made in
          our March 13, 2003, report, EPA Regional Superfund Ombudsmen Program
          Needs Structure (2003-S-00004).

Background

          EPA created Regional Superfund Ombudsman (RSO) positions in each regional
          office as part of the Superfund Administrative Reforms effort in 1996. The RSOs
          facilitate resolution of stakeholder concerns and provide a forum so States and
          communities can be more informed and involved in clean-up decisions. Prior to
          this reform, stakeholders raised concerns with regional personnel but had no
          formal mechanism to have their issues elevated. When EPA appointed the 10
          RSOs in June 1996, it issued a press release saying:

                 The establishment of an ombudsman position in each EPA region
                 will help resolve Superfund issues that fall through the cracks in
                 the current system. Through these ombudsmen, who will work
                 closely with the EPA headquarters ombudsman, the public will
                 have access to an EPA employee who will be able to cut through
                 red tape to investigate complaints and arrange meetings with
                 appropriate staff to try to resolve problems. The ombudsmen will
                 have the authority to cut across bureaucratic lines to get answers
                 and resolve problems quickly.

          In our March 2003 report, we noted that EPA does not have a management
          system in place to ensure its RSOs are accountable for fulfilling their
          responsibilities. The RSO program was generally a collateral duty within the


                                          1
                                                                              09-P-0176



    Superfund program. As a result, there was a perceived lack of independence and
    impartiality. Further, a lack of guidance had caused uncertainty over the RSO
    program. The report pointed out that changing the title of the RSOs would allow
    them to continue to provide a valuable service by informally resolving issues at a
    local level, and would alleviate the perception that they should meet the American
    Bar Association’s core characteristics of impartiality and independence. Also, to
    ensure consistent performance and results, we recommended that OSWER
    provide guidance describing the roles and responsibilities of the position.

    Responding to our report recommendations, OSWER issued guidance in March
    2004, OSWER Guidance for the Regional Public Liaisons (OSWER 9200.0-48).
    The guidance changed the “Regional Superfund Ombudsman” title to “Regional
    Public Liaison,” and allowed regions, at their discretion, to broaden the former
    RSOs’ scope beyond Superfund to include programs that OSWER administers
    under nine other Acts. It described the purpose of the RPLs as “… to provide
    information and assistance to the public in resolving issues and concerns raised
    about the programs administered by OSWER.” The guidance explains that the
    RPL may be called on to serve in a number of capacities:

       •   Provide information and facilitate informal contact with EPA staff.
       •   Help resolve problems.
       •   Make recommendations to Agency senior management aimed at
           improving OSWER programs.

    The RPL program provides stakeholders the opportunity to be involved in
    OSWER programs and serves as an important internal control to reduce the risk
    that stakeholders’ concerns will go unanswered. In issuing the guidance,
    OSWER’s Deputy Assistant Administrator’s cover memo stated that “…the RPLs
    have been a useful resource for people outside the Agency who have needed
    assistance or had concerns about the program. They have helped numerous
    individuals and defused many potentially difficult situations.” He pointed out that
    the purpose of the guidance was to strengthen the effectiveness of the RPLs by
    establishing a clear and consistent set of operating principles and procedures. He
    viewed the guidance as a sound framework for RPL activities that still allowed
    each region to implement a program that was consistent with its own needs and
    organization.

Noteworthy Achievements
    RPLs have assisted many stakeholders since the program was revised in 2004.
    New guidance more clearly described program expectations and sought to provide
    more consistent program implementation across regional offices. The name of the
    program was changed from Ombudsman to Regional Public Liaison to more
    accurately reflect the nature of the program.




                                     2
                                                                            09-P-0176



Scope and Methodology
    We reviewed OSWER’s RPL program from January 2008 through May 2009 in
    accordance with generally accepted government auditing standards. Those
    standards require that we plan and perform the evaluation to obtain sufficient,
    appropriate evidence to provide a reasonable basis for our findings and
    conclusions based on our evaluation objectives. We believe that the evidence
    obtained provides a reasonable basis for our findings and conclusions based on
    our evaluation objectives. We limited our review of management controls and
    compliance to those directly relating to the issues identified. Office of
    Management and Budget Circular A-123 notes that internal controls are a means
    of managing the risk associated with federal programs and operations.

    We analyzed the current RPL guidance and identified documentation and
    guidance from predecessor programs. We obtained annual reports, resource
    estimates, job descriptions, performance agreements, meeting minutes, and other
    information about how RPLs carried out their duties. We conducted searches of
    EPA’s national and regional Websites to determine whether stakeholders could
    readily find the RPLs, whether RPL names were up to date, and whether RPLs
    were listed on Superfund site descriptions. We communicated with eight current
    and five former RPLs. We also visited Region 2 to obtain an understanding of
    how an extensive RPL effort operated.

    As previously noted, we reviewed a March 2003 OIG report to determine whether
    our recommendations in that prior report had been implemented. We also
    reviewed Government Accountability Office reports and testimony.




                                    3
                                                                                     09-P-0176




                                Chapter 2
Focusing on Results Would Provide Greater Program
   Consistency and Facilitate Measuring Results
         OSWER’s RPL program does not sufficiently focus on or measure specific
         outputs and outcomes and is not consistently implemented across offices.
         Although RPLs are dedicated to helping their customers, the current design and
         implementation limit the program’s potential to effectively serve the public and
         measure results. RPL guidance describes three primary roles: helping members
         of the public gain access to information, helping resolve problems, and initiating
         positive institutional change to prevent similar problems in the future. However,
         because regional offices implement the program differently, offices report results
         that are not comparable and do not provide a clear picture of the program’s
         overall accomplishments. A more consistent and comprehensive approach would
         also raise stakeholder awareness of the RPL program.

RPL Program Needs Greater Focus on Outputs and Outcomes
         The 2004 RPL guidance does not define outputs or outcomes for RPLs to track as
         they carry out their responsibilities. As a result, RPLs reported annual results that
         could not be readily consolidated to show what RPLs had achieved. Without a
         clear link between program objectives and expected outputs and outcomes, the
         program will have little chance of achieving its intended results.

         EPA’s Office of Policy, Economics, and Innovation defines outputs and outcomes
         as follows:

            •   Outputs: A measure of products and services provided as a direct result
                of program activities.
            •   Outcomes: Accomplishments of program goals and objectives.

         The RPL guidance states that each RPL should provide an annual report to his/her
         Regional Administrator with a copy to the Assistant Administrator for OSWER
         describing numbers and types of issues that the RPL addressed. It goes on to note
         that the annual report could be used to make process and organizational
         recommendations and address publicly issues of concern, but does not require a
         consolidated report.

         Based on this requirement, RPLs should be reporting outputs (“numbers…of
         issues and concerns…addressed”). Categorizing them by “types of issues and
         concerns” is left up to the RPLs. Because each RPL categorizes reporting outputs
         differently and there was no shared format, RPL reports we reviewed were not
         consistent. For example:


                                           4
                                                                                         09-P-0176




                  •   One RPL provided several breakouts, including information requests
                      versus assistance requests, and categorization by EPA program area as
                      well as the source of the request.
                  •   One RPL showed number of contacts received, number that were site-
                      related, and number referred.
                  •   One RPL with only a few cases described them and noted whether they
                      were open or closed at the end of the fiscal year.
                  •   One RPL reported no major cases but referred 15-20 calls to other
                      divisions.

               None of the RPLs summarized activities by the three roles of the RPL (providing
               information, cutting red tape, and initiating institutional change). Unless the
               RPLs use comparable categories when tracking and reporting on inquiries and
               cases, it will be difficult to summarize overall RPL program results.

               While the reporting requirement does not require RPLs to track outcomes, we
               believe it would be beneficial. We found two outcome categories in sections
               where the guidance discussed other subjects: (1) “resolving problems,” and
               (2) “members of the public…gain access to information…that will help them
               participate more fully in established Agency processes.” Program outcomes also
               could be described in terms of the RPLs’ three key roles. Outputs and outcomes
               should be integrated into an overall program design for tracking and reporting.

               Although EPA reported it had measures for the earlier RSO program, one RPL
               told us that no common output or outcome measures were ever provided to the
               regions. None are currently being used. These measures are listed in the
               Government Accountability Office’s May 2000 report on Superfund
               Administrative Reforms.1 One measure was the number of cases for which EPA
               conducted investigations and mediations. Another was whether the public's
               perceptions of EPA's decisions improved.

               To capture and assess outputs and outcomes, RPLs must collect and report
               comparable data regarding program accomplishments. They instead use different
               methods to track cases and collect different data about program accomplishments.
               For example, one RPL uses a spreadsheet to log cases while others use less formal
               methods. Annual reports also capture results differently; some RPLs simply
               summarize the results of each case they handled during the year, while others
               produce relatively detailed reports. Further, not all RPLs sent annual reports each
               year. Without comparable data and reporting, the RPL program cannot conduct the
               kind of analysis necessary to evaluate results, identify areas for improvement in the
               RPL program, or encourage institutional reform in OSWER-related programs.



1
 SUPERFUND: Extent to Which Most Reforms Have Improved the Program Is Unknown, May 2000, GAO/RCED-
00-118.


                                                5
                                                                                     09-P-0176




          The RPL program coordinator does not produce a consolidated annual report that
          would show the RPL program’s accomplishments. National guidance requires each
          RPL to submit a report annually but does not require a consolidated report.
          Nonetheless, we believe a national report would be beneficial.

OSWER Should Analyze Program Logic to Focus on Results
          Given its limited resources, we believe the RPL program would benefit by using a
          logic model. We analyzed OSWER’s 2004 guidance for RPLs to determine if a
          logic model could be constructed from its description of the program. The guidance
          did not provide all the elements needed for a usable logic model. If the RPL
          program design was based on a logic model, then it would focus more specifically
          on defining outputs and outcomes and thus more clearly on program results.

          EPA training materials explain that a logic model is a diagram and text that
          describes/illustrates the logical (causal) relationships among program elements
          and the problem to be solved, thus defining measurements of success. Logic
          models help managers answer key questions and understand and check
          assumptions on how the program is supposed to work. These models can support
          program improvement and evaluation, helping to answer such questions as:

             •   What am I doing, with whom, and to whom/what?
             •   How well am I doing it?
             •   Is anybody (anything) better off in either the short or long term?
             •   What role, if any, did my program play in the results?
             •   What role, if any, did factors unrelated to the program play in the results?
             •   Were there any unintended outcomes, and if so, why?

          EPA and many other organizations use logic models to better define the
          relationship of resources; customers; outputs; and short-, medium-, and long-term
          results (or outcomes). This technique enables one to determine whether the
          program is set up to succeed and facilitates program evaluation. The EPA Office of
          Policy, Economics, and Innovation’s logic model training stresses that meaningful
          measuring of program performance requires a clear understanding of what a
          program does and the results it is intended to accomplish. EPA and the Office of
          Management and Budget endorse and make use of the logic model approach.

Regional Resources Devoted to RPL Program Varied Greatly
          Resources used by the various regions for the RPL program varied greatly, and
          one benefit of using a logic model approach is that it could help OSWER and the
          regional offices assess the adequacy of resources.

          According to estimates provided by the RPLs and the program coordinator, the
          entire RPL program used about 2.5 FTEs in 2008. Implementing the RPL


                                           6
                                                                                      09-P-0176



         program is a collateral duty for most RPLs. One RPL (Region 2) estimated his
         region’s effort at 1.9 FTEs. He and two assistants handle several hundred
         inquiries per year among other duties. Their inquiries come from the region’s
         main Web inquiry system, a Superfund hotline, direct contacts from stakeholders,
         and referrals from EPA staff. Another RPL reported spending about 35 percent of
         his time on RPL matters. RPL estimates for other regions ranged from 1 percent
         to 10 percent of one FTE. We believe that spending such a small amount of time
         may not allow RPLs to carry out the full extent of their duties. Further, two
         regional offices do not have anyone designated as RPL. Several RPLs and other
         regional staff attributed the limited RPL resources devoted to cases in their
         regions to excellent community relations.

Performance Agreements Should Include RPL Role
         The 2004 RPL guidance states that RPL duties should be included in the
         individual’s annual performance agreement:

                …The RPL is accountable for the successful performance of
                his/her official duties, as defined in his/her position description
                and more specifically delineated in his/her annual performance
                agreement.

         We found that two of the eight current RPL performance agreements did not
         mention their RPL roles. Four RPLs had general statements related to their RPL
         duties. Two had more specific wording related to their RPL role. None referred to
         the 2004 OSWER guidance. We found no common wording or description of
         duties among those we reviewed. A common understanding and written description
         of RPL duties in performance agreements would help ensure that the regions
         implemented the RPL program more consistently and achieved program outputs
         and outcomes.

Consistent Implementation Would Improve Stakeholder Awareness
         A more consistent and comprehensive approach would raise stakeholder
         awareness of the RPL program. EPA should ensure that stakeholders who may
         need RPLs are aware of their existence and can reach them easily. Currently, the
         guidance does not address awareness efforts. Based on information provided by
         RPLs and our checks of regional Websites, we found that EPA’s efforts to inform
         stakeholders about the RPL program are inconsistent. For example, 4 of 10
         regional Websites did not mention the program. Stakeholders may learn of the
         RPL program from the RPL directly (at public meetings, for example), from other
         EPA staff, or from EPA documents and Internet sites.




                                          7
                                                                           09-P-0176



RPL Guidance Does Not Address Stakeholder Awareness

The 2004 RPL guidance does not advise RPLs on ensuring that stakeholders
know the RPLs exist. The guidance states that “If community members believe
that the official Agency procedures have failed to adequately address their
concerns, they may ask the RPL to help them get information or assistance from
within the system.” It does not describe how RPLs inform stakeholders outside
EPA of their availability.

When the RPLs’ predecessor RSO program started in 1996, implementation plans
prepared by several regional offices described methods for publicizing the
existence of that program. For example, Region 2’s 1996 Implementation Plan
stated that “…The degree to which the public is made aware of the … Program
and its availability and accessibility will determine the effectiveness of the
Program. Therefore, it is imperative that EPA’s stakeholders become aware of
the program’s availability, capability and limitations.” The plan listed various
activities including creating a toll free telephone number, distributing fliers at
certain Superfund sites describing the program, and providing handout materials
to elected officials and the public. The plan also suggested coordinating with a
wide range of other regional EPA staff and State agencies; developing an RSO
Web page; and meeting with citizens, community members, and special interest
groups. Implementation plans for Regions 7 and 10 listed similar activities.

A handbook for an even earlier ombudsman program stated that the program’s
effectiveness depended to a large extent on public awareness, noting that “…Any
system for handling complaints is of no use unless the public can actually get into
the system when the need arises.” It specified certain actions, such as: developing
program fliers and brochures, providing a Federal Register notice, contacting
congressional representatives, listing the ombudsman separately in telephone
directories, and including a description of the program in employee orientation.

Various Techniques Used by Regions to Raise Awareness

Raising awareness of the RPL program varies among regions, and some
techniques could be easily implemented. Some RPLs have taken specific steps to
ensure stakeholders are aware of their program. Others appear to take a passive
approach, only reacting to inquiries if and when they receive them. Although
RPL staff discussed a draft early in the program, they have never produced a
national brochure.

Some RPLs told us that they have attended public meetings to explain their role
and share their contact information. One RPL noted that he developed a brochure
and handed it out at public meetings. He also mailed a notification about his
availability to all Potentially Responsible Parties associated with the sites in his
region and to the local jurisdictions where the sites are located. Further, he
reported joining EPA colleagues on site visits.



                                  8
                                                                                   09-P-0176



         Greater Visibility on Websites Could Help

         Some regional Websites lack any apparent mention of the RPL. EPA’s Websites
         are one key avenue for reaching people and organizations that might benefit from
         RPL assistance. EPA Policy 2191.0 emphasizes the importance of the Internet by
         stating, “The EPA Web site is a fundamental part of every Agency program; taken
         together, these pages are the foundation of the Agency’s environmental outreach
         and communication program.” We found no reference to the RPL on four
         regional Websites. Also, when we checked regional Superfund site fact sheets
         listed on regional Websites, we found that only two regions included RPL contact
         information with the site. On one site we found that the RPL was included in the
         body of the site description document; in the other, the RPL was mentioned in a
         side banner next to the site description. Because EPA considers Websites such an
         important part of its awareness and communication efforts, the RPLs should be
         prominently displayed on each Website and with site descriptions.

         The list of RPLs on EPA’s national Website was last updated in 2003 and is
         currently outdated. That list follows a description of the program’s origin in the
         1996 Superfund Administrative Reforms. However, we recently found that
         EPA’s community involvement Websites now include a link to a Regional Public
         Liaison site that is under development. Program managers and RPLs have
         discussed plans to develop an RPL Website, prepare a brochure, and add an
         article about the RPLs to the community involvement program’s Web page.
         These steps should be undertaken only after the program has defined its program
         logic and intended outputs and outcomes.

Conclusions

         The RPL program provides an important link between concerned stakeholders and
         an EPA liaison who can provide assistance. It should provide OSWER an internal
         control to reduce the risk that significant stakeholders’ concerns go unaddressed.
         However, the program currently has design and operational deficiencies that hinder
         its chances of success. These deficiencies can be addressed by defining the
         program logic and performance measures (outputs and outcomes), better use of
         performance agreements, and improving stakeholder awareness of RPLs.

Recommendations
         We recommend that the Assistant Administrator for Solid Waste and Emergency
         Response:

         2-1    Develop an RPL program logic model to:
                   • identify outputs and outcomes,
                   • assess resource needs, and
                   • revise the program’s design to help RPLs achieve the desired
                      outputs and outcomes.


                                          9
                                                                                   09-P-0176




        2-2    Adopt common data reporting elements across all regional offices and
               collect, summarize, and report comparable data.

        2-3    Report results annually in a consolidated, national report.

        2-4    Develop and use a common performance agreement element for all RPLs.
               The element should refer to the national RPL program guidance when
               defining the RPL role and expected outputs and outcomes.

        2-5    Make stakeholders aware of the RPL program by sharing contact
               information through regional staff, site descriptions, and a national
               Website linked to each regional RPL Website.

        2-6    Revise the 2004 RPL guidance as necessary to reflect revisions in the
               program and build in minimum requirements for stakeholder awareness
               activities.

Agency Response and OIG Comment
        OSWER concurred and described planned corrective actions to address all of our
        recommendations. OSWER stated is has obtained contractor support to develop a
        national RPL Website and has requested assistance from OSWER’s Center for
        Program Analysis to conduct a logic model assessment starting during the RPLs’
        National Meeting, June 16-18, 2009. The week after the meeting, OSWER told
        us that it started work on the logic model during the national meeting and will get
        contractor support to help complete it. OSWER’s response to our draft report said
        that the assessment will lead to common data reporting elements, revised
        guidance that will include minimum requirements for stakeholder awareness
        activities, and a common RPL performance agreement element. After adopting
        common data reporting elements, the RPL program will begin submitting
        consolidated national reports. We believe these actions will address our
        recommendations and we will close out the recommendations as those actions are
        completed.




                                        10
                                                                                                                                      09-P-0176



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                            POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                          BENEFITS (in $000s)

                                                                                                                Planned
    Rec.    Page                                                                                               Completion   Claimed    Agreed To
    No.      No.                          Subject                         Status1       Action Official           Date      Amount      Amount

    2-1       9     Develop an RPL program logic model to (1) identify      O        Assistant Administrator   09/30/2009
                    outputs and outcomes, (2) assess resource needs,                  for Solid Waste and
                    and (3) revise the program’s design to help RPLs                 Emergency Response
                    achieve the desired outputs and outcomes.

    2-2       10    Adopt common data reporting elements across all         O        Assistant Administrator   03/31/2010
                    regional offices and collect, summarize, and report               for Solid Waste and
                    comparable data.                                                 Emergency Response

    2-3       10    Report results annually in a consolidated, national     O        Assistant Administrator   03/31/2011
                    report.                                                           for Solid Waste and
                                                                                     Emergency Response

    2-4       10    Develop and use a common performance                    O        Assistant Administrator   10/01/2010
                    agreement element for all RPLs. The element                       for Solid Waste and
                    should refer to the national RPL program guidance                Emergency Response
                    when defining the RPL role and expected outputs
                    and outcomes.

    2-5       10    Make stakeholders aware of the RPL program by           O        Assistant Administrator   09/30/2009
                    sharing contact information through regional staff,               for Solid Waste and
                    site descriptions, and a national Website linked to              Emergency Response
                    each regional RPL Website.

    2-6       10    Revise the 2004 RPL guidance as necessary to            O        Assistant Administrator   10/01/2010
                    reflect revisions in the program and build in                     for Solid Waste and
                    minimum requirements for stakeholder awareness                   Emergency Response
                    activities.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                11
                                                                                        09-P-0176



                                                                                  Appendix A

                   Agency Response to Draft Report

June 10, 2009


MEMORANDUM


SUBJECT:        Response to Draft Public Liaison Report: “Regional Public Liaison Program Needs
                Greater Focus on Results and Customer Awareness” (Project No. OCPL-FY08-003)

FROM:           Barry N. Breen/s/
                Deputy Assistant Administrator

TO:             Eric Lewis, Director, Special Reviews
                Office of Program Evaluation


PURPOSE

        The purpose of this memorandum is to provide a written response to the findings of the
Draft Evaluation Report: “Regional Public Liaison Program Needs Greater Focus on Results
and Customer Awareness” (Project No. OCPL-FY08-0003). My staff has reviewed the draft
report and agrees with the conclusions presented in the draft report. Below you will find the
corrective actions we have initiated or planned for each recommendation.


RECOMMENDATIONS AND OSWER RESPONSE

Recommendation 2-1
Develop a Regional Public Liaison (RPL) program logic model to (1) identify outputs and
outcomes; (2) assess resource needs, and (3) revise the program’s design to help RPLs achieve
the desired outputs and outcomes.

OSWER Response: The RPL program has initiated discussions with staff in the Office of Solid
Waste and Emergency Response, Center for Program Analysis, to conduct a logic model
assessment. The logic model assessment will be conducted during the Regional Public Liaison
National Meeting, June 16-18, 2009. The RPL program expects to complete the logic model
assessment by September 30, 2009.




                                                 12
                                                                                       09-P-0176



Recommendation 2-2
Adopt common data reporting elements across all regional offices and collect, summarize, and
report comparable data.

OSWER Response: The RPL program will adopt common data reporting elements across all
regional offices once the logic model assessment is complete. Initial discussions on this
recommendation will be conducted during the Regional Public Liaison National Meeting, June
16-18, 2009. The RPL program expects to implement common data reporting elements across
all regional offices by March 31, 2010.

Recommendation 2-3
Report results annually in a consolidated national report.

OSWER Response: The RPL program will report results in a consolidated national report after
common data reporting elements have been adopted across all regional offices. The RPL
program expects to submit the first consolidated national report by March 31, 2011. This report
will include information from calendar year 2010.

Recommendation 2-4
Develop and use a common performance agreement element for all RPLs. The element should
refer to the national RPL program guidance when defining the RPL role and expected outputs
and outcomes.

OSWER Response: The RPL program will develop and use a common performance agreement
element for all RPLs. Initial discussions on this recommendation will be conducted during the
Regional Public Liaison National Meeting, June 16-18, 2009. The development of a final
common element for performance agreements is dependent on the completion of the logic model
assessment. The RPL program expects to implement a common performance element by
October 1, 2010.

Recommendation 2-5
Make stakeholders aware of the RPL program by sharing contact information through regional
staff, site descriptions, and a national website linked to each regional RPL website.

OSWER Response: The RPL program will develop a national website linked to each regional
RPL website. The RPL program has obtained contractor support to develop a national website.
A draft version of the national website will be available for review and comment during the RPL
National Meeting, June 16-18, 2009. The RPL program expects to publish the final website by
September 30, 2009.

Recommendation 2-6
Revise the 2004 RPL guidance as necessary to reflect revisions in the program and build in
minimum requirements for stakeholder awareness activities.

OSWER Response: The RPL program will revise the 2004 RPL guidance to reflect revisions in
the program ascertained from the logic model assessment and build in minimum requirements



                                                13
                                                                                         09-P-0176



for stakeholder awareness activities. The RPL program expects to implement the revised
guidance by October 1, 2010.


CONCLUSIONS

If you have any questions about these comments, please contact Karen L. Martin at
703-603-9925, or martin.karenl@epa.gov.




                                              14
                                                                                   09-P-0176



                                                                               Appendix B


                                    Distribution
Office of the Administrator
Assistant Administrator, Office of Solid Waste and Emergency Response
Acting Regional Administrators, Regions 1-10
Principal Deputy Assistant Administrator, Office of Solid Waste and Emergency Response
Director, Office of Superfund Remediation and Technology Innovation
Acting Director, Office of Regional Operations
Acting General Counsel
Acting Associate Administrator for Congressional and Intergovernmental Relations
Acting Associate Administrator for Public Affairs
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Audit Follow-up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-up Coordinators, Regions 1-10
Public Affairs Officers, Regions 1-10
Acting Inspector General




                                            15
